                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

11   TO: AIGI         1   File Number: I92100027                                 1   Date: 16 May 2002


Il   Subject: Closeout Memo                                                                  Page 1 of 1


           There was no closeout written at the time this case was closed. The following information was
           extracted from the file in conformance with standard closeout documents.

           Our office was informed that the subject' was alleged to have extensively misused grant funds by
           NSTA. Joint Audit and Investigations recovered $200,000. The subject pled guilty to 18 USC 666,
           paid restitution of $20,000.00, fined $10,000.00. The subject was also sentenced to one thousand
           hours of community service and four months of home confinement. The subject was debarred for
           three years.

           The attached documents constitute the closeout for this case.




           I
               Russell Aiuto



                           Prepared by:                   Cleared by:

                          Agent:          Attorney:     Supervisor:     AIGI
        Name:



      Signature &
         date:
                     @NATK)NAL SCIENCE FOUNDATION     @
                                                              016 C / I - ) V i r ,
                           4201 WILSON BOULEVARD
                          ARLINGTON, VIRGINIA 22230


                                       August 2 9 , 1995


  OmCEOFTHE
 DEPUTY DIRECTOR

CERTIFIED MAIL-RETURN RECEIPT REOUESTED
Dr. Russell Aiuto


      Re :    Debarment
Dear Dr. Aiuto:
On July 7, 1995, the National Science Foundation (NSF) sent you a
Notice of Suspension and Proposed Debarment in which NSF proposed
to debar you from directly or -indirectly obtaining the benefits
of Federal research grants for a period of three years. A copy
of the Notice is enclosed. The Notice sets forth in detail the
circumstances giving rise to your debarment. Your debarment is
based on your criminal conviction of theft from Federal grant
monies awarded to the National Science Teacher's Association.
The conviction establishes by a preponderance of evidence cause
for debarment pursuant to 45 CFR 55620.314(c) and 620.305.
In the July 7, 1995 Notice of Proposed Debarment, NSF informed
you that you had a period of 30 days in which to respond to the
proposed debarment. If no response was received during that time
period, the debarment would become final. You did not respond to
the proposed debarment.
Accordingly, this serves as notice pursuant to 45 CFR 5620.314
that you are debarred until July 7, 1998. The debarment shall be
effective throughout the Executive Branch of the Federal
Government. You will be excluded from receiving Federal'
financial and non-financial assistance and benefits under
nonprocurement programs and activities unless an agency head or
an authorized designee makes a determination to grant an
exception in accordance with 45 CFR 8620.215.
If you have any questions regarding the foregoing, please feel
free to contact me.
                                          Sincerely,


                                          ~nn'e C. Petersen
                                          Deputy Director
Enclosure
                                 ARLINGTON, VIRGINIA 22230
                                       July 7, 1995



       OFFlCE OF ME
     GENERAL COWSEL

    CERTIFIED MAIL-RETURN RECEIPT REOUESTED
    Dr. Russell Auito
.
          Re:    Notice of Suspension and Proposed Debarment
    Dear Dr. Auito:
    This letter serves as formal notice that the National ,Science
    Foundation (NSF) has suspended you and is proposing to debar you
    from directly or indirectly obtaining the benefits of Federal
    grants for a period of three years from the date of this letter.
    A person who is debarred will be excluded during the period of
    debarment from Federal financial and non-financial assistance and
    benefits under nonprocurement Federal programs and activities. See
    45 CFR Sections 620.110 and 620.200. Debarment of an individual is
    effective throughout the executive branch of the Federal
    Government. The effect of suspension is the same as debarment,
    except that it is for a temporary period of time pending completion
    of debarment proceedings.
    Reasons for Suswension and Debarmenk                              .
    Your suspension and debarment are based upon a referral from our
    Off ice of Inspector General (OIG)             .
                                             The Foundation's record
    demonstrates that you have committed irregularities seriously
    reflecting on the propriety of further Federal Government dealings
    with you, and that there is a cause for your suspension and
    debarment.     The Foundation's current administrative record
    indicates that you were the Director of Research and Development
    with the National Science Teacher's Association (nNSTAm), an
    organization that received Federal funding from the Department of
    Education and NSF.     The investigation of this matter further
    disclosed that you were criminally convicted of theft from Federal
    gkant monies awarded to NSTA.
    Specifically:
    1. On May 26, 1995, an Information was filed in the United States
    District Court for the District of Columbia in the matter of U.S.
    v . Russell Aiuto. A copy of the information is enclosed and the
    allegations are hereby incorporated by reference. The information
    charged you with one count of misapplying $19,598.67 of Federal
    funds awarded to NSTA by the Department of Education and the NSF

                       Telephone (703)306-1060     FAX (703)3064149
I   Dr. Russell Aiuto
    Page Two
    between January, 1991 and May, 1993, in violation of
    18 USC 5666 (Theft Concerning Programs Receiving Federal Funds).
    2. On June 7 , 1995, you pled guilty to the Information filed in
    U.S. District Court for the District of Columbia. A copy of the
    Plea Agreement is attached and hereby incorporated by reference.
    Requlatorv Basis for Debarment and Suswensioq
    45 CFR Section 620.305 provides that debarment may be imposed for:
         (a) Conviction of or civil judgment for:
              (1) Commission of fraud or a criminal offense in
    connection with obtaining, attempting to obtain, or performing a
    public or private agreement or transaction;


              (3) Commission of embezzlement, theft, forgery, bribery,
    falsification or destruction of records, making false statements,
    receiving stolen property, making false claims, or obstruction of
    justice; or
              ( 4 ) Commission of any other offense indicating a lack of
    business integrity or business honesty that seriously and directly
    affects the present responsibility of a person.
    Your conviction for theft from a program receiving Federal funds
    supports a cause for debarment under 45 CFR Sections 620.305(a)(1),
    (21, and (3).      Your conviction reflects adversely on your
    integrity, honesty, and present responsibility in relation to
    Federal financial and non-financial assistance and benefits. The
    filing of the Information and your subsequent conviction also
    establish adequate evidence for your suspension. 45 CFR Sections
    620.400 and 620.405.
    Debarment must be for a period commensurate with the seriousness of
    the cause. 45 CFR Section 620.320(a). It should generally not
    exceed three years, but where circumstances warrant, a longer
    period may be imposed. 45 CFR Section 620.320. If a suspension
    precedes the debarment, the suspension shall be considered in
    determining the debarment period. 45 CFR Section 620.320. The
    burden of proof is on the government to establish facts which
    justify debarment by a preponderance of the evidence. 45 CFR
    Section 620.314(c). Where the proposed debarment is based upon a
    conviction, the standard shall be deemed to have been met. 4 5 CFR
    Section 620.314 (c).
    You pled guilty to intentionally misapplying and knowingly
    embezzling from NSTA $19,598.67 in funds which derived from Federal
grant monies from NSF and the Department of Education.
Because. of the seriousness of this offense, we are proposing
debarment for a period of three years.
Procedures Governinq Proposed Debarment
The provisions of 4 5 CFR Section* 620.300 through 620.420 govern
debarment and suspension procedures and decisionmaking. Under,our
regulations, you have 30 days after receipt of this notice to
submit, in person, or in writing, or through a representative,
information and argument in opposition to your suspension and
debarment. 45 CFR Sections 620.313 (a); 620.412 (a).      Comments
submitted within the 30-day period will receive full consideration
and may lead to a revision of the recommended disposition. If we
do not receive a response to this notice within the 30-day period,
this debarment will become final.
Any response should be addressed to me at the National Science
Foundation, Office of General Counsel, 4201 Wilson Boulevard, Room
1265, Arlington, Virginia, 22230. For your information, we are
attaching a copy of the Foundation's regulations on Non-procurement
Debarment and Suspension.

                                   Sincerely,


                                   Lawrence Rudolph
                                   General Counsel
Attachments ( 3 )
Information
Plea Agreement
Debarment and Suspension Regulations
                                     NATIONAL SCIENCE FOUNDATION
                                         4201 WILSON BOULEVARD
                                        ARLINGTON, VIRGINIA 22230

                                                14 June 1995



    OFFICE OF
INSPECTOR GENERAL




            TO:           Neal F. Lane
                          Director,--.

        FROM:
                          Inspector General

    SUBTECT:              Proposed Suspension and Debarment of Dr. Russell Aiuto

       I am referring this matter to you because under NSF's nonprocurement debarment
regulation, NSF's suspending and debarring official is either you or an official whom you
designate.' Thus, you may resolve this matter yourself, delegate it to the Deputy ~ i r e c t o r , ~
or designate another senior NSF official to handle it.

        On June 7, 1995, Dr. Russell Aiuto, the former Director of Research and Development
with the National Science Teacher's Association (NSTA) in Arlington, Virginia, entered a plea
of guilty to one count of theft from a program receiving federal funding, a felony violation of
18 U.S.C. $ 666. In an Information filed by the U.S. Attorney of the District of Columbia,
Dr. Aiuto had been charged with one count of misapplying, embezzling, and fraudulently
obtaining federal funds awarded by the National Science Foundation and the U.S. Department
of Education (DoEd) to NSTA. United States District Judge Ernmet Sullivan accepted
Dr. Aiuto's guilty plea. Copies of the Information, the plea agreement, and the Department of
Justice press release are attached.

        Prior to his tenure at NSTA, Dr. Aiuto was Director of NSF's Division of Teacher
Preparation and Enhancement Program in the Directorate for Education and Human Resources.
At NSTA, he was responsible for public relations and dissemination of materials related to a
grant called the Scope, Sequence and Coordination (SS&C) Project, a program intended to revise
the manner in which science is taught in secondary schools. His salary as Director of Research
and Development at NSTA was paid by NSF and DoEd SS&C grants. Our audit and
investigation into his misuse of federal funds at NSTA disclosed that $19,598 in NSF and DoEd
grant hnds were fraudulently diverted by Dr. Aiuto into his personal financial account.
Dr. Aiuto is scheduled to be sentenced on September 19, 1995, before Judge Emmet Sullivan.


     '45 C.F.R.   620.105(g), (t).

     2 ~ ~misconduct
               ~ ' s regulation designates the Deputy Director (or her designee) to be the debarring official for
misconduct cases in which OIG recommends debarment. 45 C.F.R. $ 689.8(c)(l)(i). This is not a misconduct
case.
He faces a maximum sentence of 10 years imprisonment and a fme of $250,000.

        Based on the criminal Information and guilty plea by Dr. Aiuto, we recommend that you,
in your capacity as NSF's suspension and debarment official, initiate suspension and debarment
proceedings to prohibit Dr. Aiuto from receiving federal assistance (through grants or
cooperative agreements) from any source, for a period of three years. Debarment will prevent
Dr. Aiuto from receiving additional grants, and will also restrict his ability to work under
another PI'S award. We also recommend immediate suspension proceedings, because prompt
action is necessary to ensure that Dr. Aiuto does not receive funding as co-PI on a proposal he
recently submitted to NSF.~

         In addition, we recommend that you take action to ensure that Dr. Aiuto stops receiving
NSF funding,4 which is not affected by suspension and debarment; and alert the National
Endowment for the Humanities (NEH) and DoEd, both of which currently provide funding to
Dr. Aiuto,' so that appropriate action is taken by all components of the federal government.
Agency officials at NSF, NEH,and DoEd should determine whether it is more appropriate to
(1) terminate all g m t s involving Dr. Aiuto, or (2) replace Dr. Aiuto on current awards while
allowing the grantee institution to continue to receive federal funding.

        Please letus know what actions you will take in this matter.


Enclosures:      1. Department of Justice Press Release
                 2. Information fded by U.S. Attorney
                 3. Plea agreement

cc:     Anne C. Petersen, Deputy Director (w/enclosures)
        Lawrence Rudolph, General Counsel (w/enclosures)
        Luther S. Williams, Assistant Director (w/enclosures)




      %ED 95-54285, Edward J. Barboni (PI), Russell Aiuto (co-PI), and Russell Garth (co-PI), Planning Grant
for the Ejfective Incorporation of the Internet in Teacher Preparation and Professional Development.

    4~ccordingto information currently available to us, Dr. Aiuto receives NSF funding via Lnteragency Agreement
DUE-9353328, to the National Endowment for the Humanities (NEH). DUE-9353328 provides funds to support
NEH award EW-20214-94, Russell Aiuto (PD), Integrating the Sciences and the Humanities in a Program of
Environmental Studies.

    '~ationalEndowment for the Humanities, EW-20214-94, Russell Aiuto (PD), Integrating the Sciences and the
Humanities in a Program of Environmental Studies (see note 4); U.S. Dept. of Education, P-27 1A40018, Developing
Faculty Professionalism and Academic Leadershipfor Faculty Members at Historically Black Independent Colleges
(1994).
       -. a , . .
-36-07-1995   17:55


                                                  U.S.

                                                  United States Attorney

                                                 District of Columbia




     contact:         Revin A. Ohlson                    FOR IHMEDIATE RELEASE
                                                                                          'r
                      (202)   514-6933                   June 7, 1995
                                         PRESS RELEASE
                                     ERIC H. HOLDER, JR.
                                   UNITED STATES ATTORNEY
                                FOR THE DISTRICT OF COLUHBIA


              United States Attorney Eric H. Holder, Jr. , announced that Dr.
     Ruesell Aiuto, 60, of Frederiok, Maryland, the former Director of
     Research and Development with the National Science Teachsrte
     Association        ("NSTAw) in Arlington, Virginia, entered a plea of
     guilty today in United States District Court to one count of theft
     from a program receiving federal funding. Dr. Aiuto admitted that
     he had embezzled from NSTA approximately $19,598.00 in funds, which
     had originated from federal grant monies awarded to NSTA by the
     National Science Foundation (NSF) and the Department of Education.
              According to the statement of facts presented in court today,
     Dr. A i u t o was responsible for public relations and dissemination of
     materiala related to a grant project called the "Scope, Sequence,
     and Coordination P r o j e ~ t ,a ~program
                                         ~      intended to revise the manner
     in whioh eaience is taught in secondary echoole.                      Prior to his
     employment with NSTA, Dr. Aiuto had eerved as the Director of the
     Division of Teacher Preparation and Enhancement at NSF, and had
     been involvad with the formation of this grant program.                      As a
     reprsaantative of NSTA, Dr. A i u t o traveled throughout the country,
making presentations about science education reform to etate and
local school districts and professional educational organizations.
Dr. Aiuto's travel for this purpose was paid for by NSTA from the
grant funds.
     An audit by the Office of Inspector General of NSF of the
grant program revealed that on many occa~ions,Dr. Aiuto had sought
reimbursement for his official travel expenses directly from the
institution6 and organizations to which he had lectured, d e e p i t e
the fact that NSTA had already financed his official travel. When
Dr. ~ i u t owas successful in obtaining such reimbureements, he
deposited the checks that he received directly into his personal
bank account without remitting the fundg to NSTA or even notifying
NSTA that he had received a reimbursement.
     Dr. Aiuto ia scheduled to be sentenced on September 19, 1995,
before United States ~ietrict Judge Emmet Sullivan.       He faces a
maximum sentence of 10 years imprisonment and a fine of $250,000.
     United    Statee Attorney   Eric H.   Holder, Jr.   praised the
investigative efforts of Special Agente Paul Coleman and Catherine
Hickey from the Office of Inspector General at the National Science
Foundation.    He a l e o praised the work of Assistant United States
Attorney Leslie Ann Gerardo, who proeecuted the caee.
4   05/16;95   TLIE 17:16 FAX 2 0 2 514 8782       PZTBLI C CORRUPT

                                                                        9
                                                          U.S. Departmen of Justice

                                                          United States Attorney

                                                          Dtrnict of Columbia




                                                          April 21, 1995

           Robert A. Gingell, squire
           Gingell & Jenkins
           Suite 5 0 6
           Wheaton Plaza South
           11160 viers Mill Road
           silver Spring, MD 20902
                  Re:     United States v. Russell Aiuto
           Dear Mr. Gingell:
                This letter sets forth the full and complete plea offer from
           the Office of the United States Attorney for the District of
           Columbia to your client, RUBBELL AZUTO, and supersedes any previous
           offer.    This offer is binding only upon the United States
           Attorney's Off ice for the District of Columbia. There are no other
           agreements, promises, terms or conditions expressed or implied.
           The plea offer expires at 5 : 3 0 p.m. on Friday, May 12, 1 9 9 5 . If
           your client intends to accept this offer, then a copy of this
           letter, signed by your client, must be delivered or faxed to my
           office by 5:30 p.m- on Friday, May 12, 1995. My office fax number
           is (202) 5 1 4 - 8 7 8 2 .


                                               PLEA AGREEMENT
                    The United S t a t e s , by and through its representative, t h e
           United states Attorney's Office for the District of Columbia,
           e n t e s s into the f                          with the defendant RUSSELL
           AIUTO :

                  1.      CHARGES, POTENTIAL P E ~ ~ L T I EAND
                                                             S ASSESSHENTS
                                                    111
                 (a) RUSSELL AIUTO                             will   plead  guilty to an
           information charging him                                               a program
           receiving ~edera'lfunds                                             is a felony
           offense, and will expose                                     possible penalty of
           a fine of not more than                                      of not more than 10
           years, and a special                                                                5
                               .
                                                                                to 18 U.S.C.
           3013 (a)(2) (A)

                (b) Defendant understands                   sentencing in t h i s case shall
           be imposed pursuant to the Sonte                 Guidelines promulgated by the
05/'16'95   TUE 17:16 FAX 2 0 3 514 8782




                                       .
        United States sentencing commission, as codified at 18 U. S.C. 53551
        and sections following

             (c) Defendant understands that if the court determines that
        the Sentencing Guideline range is greater than what defendant and
        defense counsel believe to be correct, then defendant is still
        bound by this Plea Agreement.


             The plea of g u i l t y in t h i                  be based upon a factual
        admission of guilt by                                  offense charged.    This
        admission by the                                           the Court. The plea
        of guilty will be                                    ith Rule 11 of the Federal
        Rules of Criminal Procedure.
                3.
                                                b
                       Defendant AGRBZS to t s f o l l ~ 3 i n gadditional conditions:




                                                      wou.i
                (a)   WAIVER OF CONBTIFUTI          L AND IBTAFUTORY RIGHTB
                   (i1   waiver of co:2stitut:. nal R i q h t s -- Defendant
        understands that by pleading     ty in this case, defendant w i l l be
        giving up the following con       tional rights:     the right to be
        indicted by a grand jury, th       t to plead not g u i l t y , the right
        to a jury trial at which de        t woild have the opportunity to
        present evidence, testify in de'endant1s own behalf, cross-examine
        witnesses, and to be represent~dby c:, n s e l - If defendant chose
        not to testify at such a trial., then hat decision could not be
        held against defendant. Defentant          be innocent until proven
        guilty beyond a reasonable doub: and the burden of proof would rest
        upon the United States. If defendant J+ re found guilty after such
        a trial, then defendant would have the right t o appeal the
        conviction.
                  (ii) Waiver of ~tadutorv idiqhta                 --
                                                            Defendant also
        understands t h a t , as part of &nterin$ into this Plea Agreement,
        defendant also specifically waives an rights that defendant may
                                           P
        have had under the Spee y ria:. Act, 18 U.S.C. d 3161,              &. a.
                                                        !
             The United States droffers                            shall be the amount
        of loss used to calculate                                       Characteristic
        pursuant to g 281.1 '(b)                                            Sentencing
        Guidelines (sentencing                                                 of loss
        caused by defendant.
                (c) RESTITUTION
             Defendant AGREES that 8
                                                I       li   shall be   the amount of
        restitution to be paid by de                                           as are
        determined by the United State
                       .   -

.   05/16/95   TUE 17:17 FAX 2 0 2 514 8782          PUBLIC CORRUPT




                   (d)         NO WAIVER OF C I V I L REMEDIES
                 Defendant UNDERSTANDS AND                               this Plea Agreement
           affects only criminal charges                                  construed, in whole
           or in any p a r t , as a                                        compromise of any
           remedies available to                                           U.S.C.   § 3729,   &.
           M . , or any other                                                united States by
           law.    '


                   (e) UBE OF INFORMATION
                   Defendant AGREES that the
                                                        I                may make derivatiee
                                                                            suggested by ariy
                                                                           defendant i s ever
           a witness i n any                                                   may be cross-
           examined                                                           that defendant




                Defendant AGREES t h a t if                      ails to comply with any of
           the provisions of this Plea                           or refuses to answer any
           questions put t o defendant,                          any f a l s e or misleading
           statements to investigators,                                to cooperate w i t h
           investigators and attorneys                                      or makes false or
           misleading statements                                          court, or commits
                                                                           have the sight to
                                                                               Agreement, in
           which  case the                                                        under this
           agreement will be                                                     the right to
                                                                                   be charged
                                                                                    any other
                                                                                    not time-
                                                                                       of the




          paragraph.
               Defendant understands                                  the United States shall
          only be required to                                            Plea Agreement by a
          preponderance of the                                                understands and
-
    .   -

            agrees that the United States need only prove a violation of
            Federal, state and local criminal law by probable cause in order to
            establish a breach of this Plea Agreemeqt.
                 (g) SENTENCE WITHIN DISCRETION OF THE COURT

                 Defendant UNDERSTAND@ that the               ate sentence to be imposed
            in this case is a matter solely                    discretion of the Court.
                 4.   As part of this Plea Agreemen           , the United   States agrees
            to the following:
                 (a)   NO ADDITION&L CRARGES
                 If defendant completely fulfills
            Plea Agreement, then the United States
            District of Columbia agrees to bring no
            against defendant for any offenses
            employment with the National
            concerning the National Science
            Sequence, & Coordination Project.
                 (b)   BENTENCING Q U X m X N E B RANGE
                   If defendant completely fulfills
            Plea Agreement, then the United States
            District of Columbia will not oppose
            t h e lover part of the applicable
            the United States Probation
            Guidelines.
                 (c) ACCEPTANCE OF RESPONSIBILITY
                  If defendant completely fulfills
                                                                                     I
            Plea Agreement, then the united
            District of Columbia will not
            level downward adjustment for
            t o § 3El.l of the
            continues to show
            cooperation with the
                 (d) WAIVER OF STEP-BACK
                 If defendant completely fulfills
                                                          I   11 obligations under this
            Plea Agreement, then the United                   Attorney's office for the
            ~istrict of Columbia will not                        defendant be detained
            pending sentencing.
                 5.    RESERVATION OF ALLOCUTION
                                                          I
                                                          d
                 Except as limited in Paragraph 4 ( b ) , the United States
            reserves the right to full allocution a sentencing, including the
     UJI     10: v i )   L C I ~1 1 ; 10   rnli i u r   a14 a f a r            rCIbL1 C; LUKKllYl'
I    '


--
         "




                    right to s e t forth at sentencing                                          its evidence with respect
                    to defendant's criminal 'activitie
                               6.          RESERVATION OF'RIGHT TO CONTEST THE PRESENTENCE REPORT
                         The United States rdserves                                              to inform the presentence
                    report writer and the Court of an                                           ant facts, to dispute any
                    factual inaccuracies in khe                                                 report and to contest any
                    matters not provided for1 in                                                reement.
                                                                      I
                               8.          RESERVATION OFI                RIGHT TOAPPEALL,           AND DEFEND TEE BFNTENCE
                                                                      i
                         The United States reserves th rig      to appeal the sentence in
                    this case and reserves theth.;.    tak:f.ny    position in defense of
                    an appeal by defendant in t is ca e.


                         Defendant UNDERSTAND
                    promises, understandings,
                    parties or their counsel
                    herein, nor will any such
                    representations be made u
                                                                                              I
                                                                                    GREES that no other agreements,
                                                                                   sentations have been made by the
                                                                                   than t ose contained in writing
                                                                                   nts, promises, understandings or
                                                                                   mmitted to writing and signed by
                    defendant, defense counse                                       Assietant United States Attorney
                    for the District of Colu



                                                                      I I              Sincerely,
                                                                                       ERIC H . HOLDER, Jr.
                                                                                       UNITED STATES ATTORNEY
* 05/16/'95   TUE l7:lS FAX 2 0 2 514 8782   PUBLIC CORRUPT

                                                        I




                I have read the foregoing terms and c o n d i t i o n s and I have
          discussed them with my attorney.        I f u l l y understand and accept
          them. T h i s agreement i s executed v o l u n t a r i l y and of m y own free
          will. N o promises, commitments, or understandings have been made
          to m e in connection w i t h the execution of t h i s agreement other than
          those set forth above. I hereby indicate my assent and agreement
          to all of t h e terms and conditions of t h i s agreement by m y
          signature below.




                                             RUSSELL AIUTO



              I am the attorney for defendant. I have c a r e f u l l y reviewed
          every part of t h i s P l e a Agreement with the defendant.         It
         accurately and completely sets for the entire agreement between t h e
         defendant and t h e Office of the United States Attorney for the
         District of Columbia.




                                             CO
                                                  9
                                                  SEL FOR DEFENDANT
